No. 20-____
IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTOPHER SPREITZ, Petitioner,
vs.
DAVID SHINN,
Director, Arizona Department of Corrections,
Rehabilitation & Reentry, Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39, Rules of the Supreme Court, Petitioner Christopher
Spreitz hereby moves for leave to proceed in forma pauperis in the above-captioned
cause. Spreitz has been incarcerated continuously since his arrest in May 1989. The
United States District Court for the District of Arizona appointed CJA counsel for
Spreitz under 21 U.S.C. ยง 848(q)(4)(B) for his capital federal habeas corpus
proceedings pursuant to 28 U.S.C. ยง 2254.

Order of Appointment and General

Procedures, Spreitz v. Stewart, No. CV-02-0221-TUC-CKJ, (D. Ariz. May 14, 2002),
Doc 8.

On June 28, 2012, while the appeal of the denial of habeas corpus relief pended,
CJA counsel moved in the Ninth Circuit to withdraw and to have the Federal Public
Defender substituted on behalf of Spreitz. Motion for Substitution of Counsel, Spreitz
v. Ryan, No. 09-99006 (9th Cir. June 28, 2012), ECF No. 38. The court granted that
motion on July 3, 2012. Order, Spreitz, No. 09-99006 (9th Cir. July 3, 2012), ECT No.
39. On July 13, 2012, the court also granted the motion of CJA co-counsel to

withdraw. Amended Order, Spreitz, No. 09-99005 (9th Cir. July 13, 2012), ECF No.
45. Undersigned counsel has represented Spreitz since entering his appearance after

the FPD s appointment on July 3, 2012. Spreitz remains without funds with which
to pay the costs of the present litigation.
Accordingly, Christopher Spreitz asks that he be permitted to proceed in forma
pauperis in this Court.

Respectfully submitted: December 28, 2020.
Jon M.Sands

Federal Public Defender
*Timothy M. Gabrielsen
Assistant Federal Public Defender
407 W. Congress St., Suite 501
Tucson, Arizona 85701

(520) 879-7614 voice
(520) 622-6844 facsimile
tim_gabrie lsen@fd.org

^ ci[^L[,

.^^ C^U.-

Timothy M. Gabrielsen

Counsel for Petitioner Christopher Spr^eits
Counsel of Record

2

